CERTIFICATE OF COMPLIANCE

No. 21-214

SHANTUBHAI N. SHAH,
Petitioner
Vv.
MEIER ENTERPRISES, INC.,

Respondent

As required by Supreme Court Rule 33.1(h), I certify
that the Brief in Opposition to Writ of Certiorari
contains 2881 words, excluding the parts of the
petition that are exempted by Supreme Court Rule
33.1(d).

I declare under penalty of perjury that the foregoing
is true and correct.

Executed on September 29, 2021

hn >_>

Rebecca A. Watkins
Counsel of Record for Respondent
